No. 20-1110
IN THE

Supreme Court of the United States
SANDOZ INC., et al.
Petitioners,
v.
IMMUNEX CORP., et al.
Respondents.
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the document contains 3,319
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 15, 2021.

/s/ Matthew S. Hellman
Matthew S. Hellman

